    Office of Inspector General
    Audit Report




       SUPERFUND


Update on Brownfields Initiative
  to Revitalize Urban Areas
            2000-P-00027
         September 29, 2000
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC
Region(s) covered               Regions 1, 4, 5, and 9
Program Office(s) Involved      Outreach and Special Projects Staff
                                Office of Solid Waste and Emergency
                                Response
MEMORANDUM
SUBJECT:     Update on Brownfields Initiative to Revitalize Urban
             Areas
             Audit Report No. 2000-P-00027
FROM:        Frances E. Tafer /s/
             Audit Manager
             Headquarters Audit Division
TO:          Timothy Fields, Jr.
             Assistant Administrator for
               Solid Waste and Emergency Response

       This report concludes our follow-up audit of EPA’s Brownfields Initiative.
Generally, we found that Agency efforts to implement our previous recommendations
appear to be achieving the desired results. However, we found that: 1.) the cleanup
loan fund pilots have been slow to make loans; and 2.) the site assessment pilot
selection and reporting processes should be better documented and more timely,
respectively.

      This report describes additional findings and corrective actions the Office of
Inspector General (OIG) recommends to improve the Brownfields Initiative. As such, it
represents the opinion of the OIG. Final determinations on matters in the report will be
made by EPA managers in accordance with established audit resolution procedures.
Accordingly, the issues described in this report do not necessarily represent the final
EPA position and are not binding upon EPA in any enforcement proceeding brought by
EPA or the Department of Justice.

       In responding to the draft report and during the exit conference, your staff
provided corrective actions, with milestone dates, for each recommendation.
Therefore, no further response is required; and we are closing this report in our
tracking system upon issuance. Please track all corrective actions in the Management
Audit Tracking System (MATS). We have no objections to the further release of this
report to the public. Should your staff have any questions, please have them contact
Susan Lindenblad on (202) 260-0338.
               EXECUTIVE SUMMARY
INTRODUCTION        On March 27, 1998, the EPA Office of Inspector
                    General (OIG) issued a report, Brownfields: Potential
                    for Urban Revitalization (E1SHF8-11-0005-8100091).
                    The report provided recommendations to improve the
                    Brownfields Initiative by focusing site assessment
                    grants on environmental assessments that provide
                    adequate quality assurance, and by offering training
                    and seeking legislative changes to improve the
                    Brownfields Cleanup Revolving Loan Fund (BCRLF)
                    grant program. The Office of Solid Waste and
                    Emergency Response (OSWER) agreed to
                    implement these recommendations.

                    The Agency defines brownfields as abandoned, idled,
                    or underutilized industrial and commercial facilities
                    where expansion or redevelopment is complicated by
                    real or perceived environmental contamination.
                    While the Brownfields Initiative does not address
                    sites with the greatest environmental risk, it does
                    address a major Administration goal involving several
                    Federal agencies which is to restore contaminated
                    urban land and buildings to productive use. The
                    Brownfields Initiative has continued to draw interest
                    from cities and other local governmental entities, as
                    well as Congress and the states.

OBJECTIVES          The objectives of our follow-up review were to
                    determine: whether the recommendations of the
                    original audit have been implemented and effective,
                    whether the grantees have instituted adequate quality
                    assurance and quality control procedures for site
                    assessments, and what actions EPA should take to
                    enhance BCRLF pilots’ abilities to make loans to
                    clean up brownfields sites.

RESULTS IN BRIEF    The Agency has taken significant steps to implement
                    our previous recommendations. In general, these
                    efforts appear to be achieving the desired results.

                                                      Report No. 2000-P-00027
                  Brownfields Assessment Demonstration Pilot
                  proposals are more focused on site assessment than
                  they were before. The selection process, however,
                  would be improved with a few modifications and
                  better documentation. While the strength of regional
                  quality assurance programs varied, all regions
                  reviewed have considered the national guidance that
                  OSWER provided. Site assessment pilots are
                  providing better quarterly reports to EPA, but need to
                  improve on the timeliness of those submissions.

                  The BCRLF is, still, in need of additional flexibility
                  and time before its success can be fairly evaluated.
                  While many changes have been proposed and made
                  to the program, its pilots have been slow to make
                  cleanup loans. In the BCRLF’s limited history, four
                  pilots have issued five loans and only one cleanup
                  has been completed.

RECOMMENDATIONS   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response: (1) continue
                  efforts to implement the recommendations from our
                  original audit; (2) revise and better document the
                  results of the assessment pilot selection process; (3)
                  evaluate regional implementation of quality
                  assurance guidelines; (4) seek to add flexibility to
                  and, after gaining additional experience, obtain an
                  independent evaluation of the BCRLF program; and
                  (5) clarify and emphasize pilot reporting
                  requirements.
AGENCY COMMENTS   The Agency agreed with our recommendations and
                  made plans to implement them. The comments also
                  suggested changes to clarify the report which we
                  made as appropriate. When fully implemented, we
                  believe EPA’s plans will be responsive to our
                  recommendations. The Agency’s comments are
                  included as Appendix I of our report.




                           ii                       Report No. 2000-P-00027
                            TABLE OF CONTENTS

                                                                                                                     Page


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

CHAPTER 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    1
    Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
    Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       2
    Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                4
    Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           5

CHAPTER 2: Assessment Pilot Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    Quality of Grant Proposals Has Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    Better Documentation Needed to Support Applications Selected for Award . . . 9
    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
    Agency Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

CHAPTER 3: Brownfields Quality Assurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        15
    Prior Recommendations Have Been Implemented by OSWER . . . . . . . . . . . .                                            15
    Strength of Regional QA Programs Varied . . . . . . . . . . . . . . . . . . . . . . . . . . .                           16
    QAPPs Are Key to Valid and Useful Assessments . . . . . . . . . . . . . . . . . . . . .                                 19
    Site Visits and Increased Communication Can Enhance
      the Quality of Assessments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21
    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             22
    Agency Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          22

CHAPTER 4: The Brownfields Cleanup Revolving Loan Fund . . . . . . . . . . . . . . . . .                                    24
    Status of the BCRLF Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  25
    Impediments to Loan Issuance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    26
    Increasing Flexibility May Increase Loans From the BCRLF . . . . . . . . . . . . . .                                    28
    The Future of the BCRLFs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                29
    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             30
    Agency Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          31



                                                             iii                                Report No. 2000-P-00027
CHAPTER 5: Brownfields Initiative Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           32
    Reporting Brownfields Accomplishments Needs to be Timely . . . . . . . . . . . . .                            32
    EPA is Working to Improve the Reliability of BMS Data . . . . . . . . . . . . . . . . .                       33
    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   36
    Agency Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37

APPENDIX I: AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

APPENDIX II: REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46




                                                         iv                               Report No. 2000-P-00027
            ABBREVIATIONS
AA       Assistant Administrator
BCRLF    Brownfields Cleanup Revolving Loan Fund
BMS      Brownfields Management System
CERCLA   Comprehensive Environmental Response, Compensation, and
         Liability Act
EPA      Environmental Protection Agency
GAO      General Accounting Office
GPRA     Government Performance and Results Act of 1993
NCP      National Oil and Hazardous Substances Pollution Contingency
         Plan
OIG      Office of Inspector General
OSC      On-Scene Coordinator
OSPS     Outreach and Special Projects Staff
OSWER    Office of Solid Waste and Emergency Response
PM       Project Manager
QA       Quality Assurance
QAM      Quality Assurance Manager
QAPP     Quality Assurance Project Plan




                              v                     Report No. 2000-P-00027
(This page intentionally left blank)




                 vi                    Report No. 2000-P-00027
             CHAPTER 1
             INTRODUCTION



Purpose      To help the nation address environmental concerns
             associated with the redevelopment and reuse of
             industrial and commercial properties, EPA launched
             the Brownfields Economic Redevelopment Initiative in
             1993. The Agency defines brownfields as
             abandoned, idled, or underutilized industrial and
             commercial facilities where expansion or
             redevelopment is complicated by real or perceived
             environmental contamination.

             The EPA Office of Inspector General (OIG) issued a
             report, Brownfields: Potential for Urban Revitalization
             (E1SHF8-11-0005-8100091), on March 27, 1998.
             The report provided recommendations to improve the
             Brownfields Initiative by focusing site assessment
             grants on environmental assessments that provide
             adequate quality assurance, and by offering training
             and seeking legislative changes to improve the
             Brownfields Cleanup Revolving Loan Fund (BCRLF)
             grant program. The Office of Solid Waste and
             Emergency Response (OSWER) agreed to
             implement these recommendations.

             The Brownfields Initiative has continued to draw
             interest from cities and other local governmental
             entities, as well as Congress and the states.
             Therefore, the OIG began a follow-up audit to assess
             the Agency’s progress in implementing the
             recommendations from the OIG’s 1998 report,
             including instituting quality assurance measures for
             site assessments, and identification of improvements
             to the BCRLF program to allow maximum use of
             funds for brownfields cleanups.

Background   The Comprehensive Environmental Response,
             Compensation, and Liability Act (CERCLA) §104(a)

                      1                         Report No. 2000-P-00027
                                  gives EPA broad authority to take response actions,
                                  consistent with the National Hazardous Substances
                                  Pollution Contingency Plan (NCP), to address
                                  releases and threatened releases of hazardous
                                  substances, pollutants, and contaminants. CERCLA
                                  §104(b) authorizes EPA to undertake a variety of
                                  studies and investigations, including monitoring,
                                  surveys, testing, planning, and information gathering.
                                  CERCLA §104 response actions may be taken at
                                  sites at which a release or threatened release
                                  occurred, regardless of whether those sites are listed
                                  on the National Priority List. EPA’s Office of General
                                  Counsel has determined that EPA may address
                                  brownfields using CERCLA §104 authorities and may,
                                  pursuant to CERCLA §104(d) provide funds to states,
                                  political subdivisions, and Indian Tribes to address
                                  brownfields. While the Brownfields Initiative does not
                                  address sites with the greatest environmental risk, it
                                  does address a major Administration goal involving
                                  several Federal agencies which is to restore
                                  contaminated urban land and buildings to productive
                                  use. Congress has approved an increasing budget
                                  for the Brownfields Initiative to promote economic
                                  redevelopment by assessing and cleaning up sites,
                                  as described below.

                                  EPA’s efforts under the Brownfields Initiative can be
                                  grouped into four broad and overlapping categories:
                                  (1) providing grants1 for brownfields pilot projects; (2)
                                  clarifying liability and cleanup issues; (3) building
                                  partnerships and outreach among federal agencies,
                                  states, municipalities, and communities; and (4)
                                  fostering local job development and training
                                  initiatives.

                                          Brownfields pilot projects include these two
                                          categories:

                                          (1) assessment demonstration pilots, and

                                          (2) BCRLF pilots.


1
 We use the term synonymously with cooperative agreement throughout this report.

                                              2                              Report No. 2000-P-00027
Both types of pilots are funded though grants
between EPA and any of the following: states,
political subdivisions (including cities, counties, or
regional governmental organizations), and Indian
Tribes. Most pilot projects have been awarded to
cities.

Assessment pilots are funded up to $200,000 each
and are designed to assist with environmental
activities prior to cleanup, such as site identification,
site assessment, and cleanup planning and design.
Pilot officials may apply for a follow-on supplemental
assessment grant, funded up to $150,000, for
continuing assessment activities. An additional
$50,000 in funding is available for assessing the
contamination of a brownfields site that is or will be
used for “greenspace” purposes such as parks,
playgrounds, trails, gardens, and open space.

The BCRLF pilots, each funded for up to $500,000,
provide funds from which low interest rate loans can
be made for the cleanup of brownfields sites. The
fund is replenished through repayment of principal
and interest, so that future loans can be made for
cleanup activities.

To obtain an assessment grant, an applicant must go
through a competitive award process administered by
EPA. The Agency establishes panels consisting of
personnel from a number of federal agencies to
review each application in accordance with a
predetermined set of criteria. The Assistant
Administrator (AA) for Solid Waste and Emergency
Response makes the final determination on awards.
To obtain a BCRLF grant, the applicant must have
previously been the recipient of an assessment grant
and submit an application addressing evaluation
criteria established by EPA. As of September 1999,
EPA had awarded a total of 304 assessment pilots
and 68 BCRLF pilots. The Agency’s budget for
brownfields activities increased from $10 million in
fiscal year 1996 to $92 million for fiscal year 2000.



          3                          Report No. 2000-P-00027
Scope and Methodology   In January 2000, the Office of Inspector General
                        began a follow-up to our March 1998 audit report,
                        Brownfields: Potential for Urban Revitalization. We
                        obtained information from the Outreach and Special
                        Projects Staff (OSPS) within OSWER on actions
                        taken to implement recommendations included in the
                        prior report. We interviewed EPA Headquarters
                        personnel and reviewed program documentation. We
                        reviewed the brownfields application and evaluation
                        process and the Brownfields Management System at
                        Headquarters using information available in OSPS.
                        For our review of assessment and BCRLF grant
                        implementation, we visited Regions 1, 4, 5, and 9 and
                        interviewed the regional brownfields coordinators and
                        project officers and reviewed grant files. We visited
                        six brownfields assessment pilot cities and seven
                        BCRLF pilot cities and interviewed city/county
                        personnel, reviewed grant files, and visited several
                        brownfields properties.

                        For our review of assessment pilot awards, we drew a
                        statistical random sample of 42 pilot grants awarded
                        during fiscal year 1999, the first complete application
                        cycle since we issued our prior report in March 1998.
                        We reviewed the grant files to determine if the grant
                        applications contained the information required in
                        response to our previous audit recommendation. We
                        also compared the proposal evaluation criteria
                        currently used by the Agency to determine if they
                        included revisions responsive to the recommendation
                        in our prior report. We used a judgmental sample to
                        determine which brownfields pilots to visit to review
                        grants that had been awarded after we issued the
                        prior report and to focus on pilot projects which
                        involved activities requiring quality assurance
                        procedures.

                        Our audit fieldwork was conducted from February to
                        April 2000. Except as noted below, the audit was
                        conducted in accordance with Generally Accepted
                        Government Auditing Standards (Government
                        Auditing Standards, 1994 Revision). Since this was a
                        follow-up audit, we did not conduct an in-depth review


                                 4                        Report No. 2000-P-00027
                       of internal controls, except for those specifically
                       mentioned in our prior report. The U.S. General
                       Accounting Office (GAO) recently issued a report on
                       a portion of OSWER’s performance measures. The
                       report included some Brownfields measures which
                       were established as required by the Government
                       Performance and Results Act of 1993. Accordingly,
                       we did not review the adequacy of Brownfields
                       performance measures, but we do discuss reported
                       accomplishments in Chapter 5.

Prior Audit Coverage   The OIG issued a report, Brownfields: Potential for
                       Urban Revitalization, (E1SHF8-11-0005-8100091) on
                       March 27, 1998. In addition, GAO, in the
                       aforementioned report, Superfund: Extent to Which
                       Most Reforms Have Improved the Program Is
                       Unknown (GAO/RCED-00-118, May 12, 2000), noted
                       that brownfields assessment pilots are one of the few
                       Superfund administrative reforms reviewed that had
                       associated performance measures with demonstrated
                       positive outcomes: sites assessed, cleaned up, and
                       redeveloped.




                                5                       Report No. 2000-P-00027
(This page intentionally left blank)




                    6                  Report No. 2000-P-00027
                         CHAPTER 2
                  Assessment Pilot Awards


                         To address the recommendations from our prior
                         report, the Agency revised its “Proposal Guidelines
                         for Brownfields Assessment Demonstration Pilots” in
                         October 1998. Our statistical sample of proposals
                         selected for review in this audit has shown that
                         prospective grantees are submitting proposals which
                         address the ranking factors contained in these
                         guidelines, and the revised evaluation criteria have
                         contributed to an overall improvement in the quality of
                         proposals. Although there have been substantive
                         revisions to the proposal evaluation criteria, they
                         could be further improved by emphasizing the need
                         for applicants to include project milestones for
                         completing tasks under the grant, and by ensuring
                         that proposals describe plans to use quality sampling
                         and analysis procedures. The integrity of the
                         selection process can be strengthened by
                         documenting the justification for selecting lower
                         ranked proposals over those that were ranked higher
                         during the evaluation process.

Quality of Grant         In our prior report, we recommended that the Agency
Proposals Has Improved   revise proposal evaluation criteria in order to give
                         credit and higher ranking to those cities whose work
                         plan (a) identified sites, (b) proposed to conduct site
                         assessments, (c) contained the largest number of
                         components of a redevelopment effort, (d) contained
                         specific objectives and milestones, and (e) contained
                         in-house technical expertise or a commitment for
                         obtaining or developing technical expertise. By
                         revising the evaluation criteria used for the selection
                         of pilot demonstration projects, we believed the
                         Agency would be encouraging cities to focus their
                         effort on those activities having the greatest potential
                         for promoting rapid site redevelopment. The Agency

                                   7                         Report No. 2000-P-00027
agreed to revise the pilot application evaluation
criteria in accordance with our recommendation.

In October 1998, the Agency issued its revised
“Proposal Guidelines for Brownfields Assessment
Demonstration Pilots.” We compared the evaluation
criteria included in the proposal guidelines from our
prior audit with the 1998 criteria. We found that the
Agency made substantive revisions to the guidelines
to address almost all of the elements identified in the
recommendation from our prior report. The revisions
placed greater emphasis on the need for applicants
to describe or include project objectives, site
identification, site assessments, plans for
redevelopment projects, and in-house technical
expertise. Applicants are submitting proposals which
address these criteria to help improve their chances
of being awarded a brownfields site assessment
grant.

In our prior report we recommended that proposal
criteria be revised to give higher ranking to those
cities whose work plan contained specific objectives
and milestones. While the Agency has stressed the
need for specific objectives, the revised criteria did
not clearly emphasize the need for applicants to
include project milestones for completing tasks under
the grant. Our analysis showed that only 8 of the 42
proposals (19%) contained milestone dates. Another
11 (26%) identified interim accomplishments, but no
dates. However, 23 of the 42 proposals (55%) we
sampled did not include any type of project
milestones for completing tasks under the
assessment pilots. Having such information allows
both the EPA project officer and the grantee to
monitor progress and initiate corrective action when
progress is insufficient.

At the time of our first audit, the Agency had not
developed quality assurance guidance for
brownfields. It has since done so. The Agency’s
revised guidelines for preparing proposals asks
applicants to describe plans to ensure the use of


         8                         Report No. 2000-P-00027
                                quality environmental sampling and analysis
                                procedures necessary for sound environmental
                                assessments of brownfields. In fiscal years 1998 and
                                1999, 27 percent of applicants planning to conduct
                                sampling did not address this factor. We believe it is
                                important that all proposals clearly emphasize plans
                                for quality sampling and analysis procedures to
                                ensure reliable and accurate site assessments.
                                OSWER could better assure that this occurs in
                                several ways. Proposal guidelines could be revised
                                to stress the need for applicants to address this
                                factor. If the proposal does not adequately address
                                quality sampling and analysis when it should, it could
                                be rejected outright or, after preliminary review, it
                                could be returned for further work.

                                OSWER officials told us that they have noticed a
                                significant improvement in both the proposal
                                presentation and the quality of information provided
                                as a result of the revised guidance. Our analysis of
                                the statistical sample confirms that the proposals are
                                much more focused on site assessment. Our first
                                audit looked at five of the earlier brownfields pilots
                                and found that of the $1 million dollars granted, less
                                than $150,000 was spent on actual site assessments.
                                The proposals that we reviewed for this audit indicate
                                that dollars spent on site assessment will be much
                                higher. Of the 42 proposals reviewed, 41 indicated
                                that the applicant planned to conduct site
                                assessments with the grant money and 35 of those
                                either identified specific sites or areas where site
                                assessments would be conducted.

Better Documentation Needed
to Support Applications
Selected for Award          EPA’s proposal guidelines state that proposals must
                            be clear and decisive, strictly follow the criteria, and
                            provide sufficient detail for review panels to compare
                            the merits of each and decide which application best
                            supports the intent of the brownfields pilot program.
                            Brownfields assessment pilot grants are competitively
                            awarded, based on the evaluation of proposal
                            applications.


                                         9                        Report No. 2000-P-00027
Once OSPS receives proposals, they are sent to staff
from EPA headquarters, the regions, and
representatives from other federal agencies to be
reviewed and scored. Brownfields proposal
applications can earn a maximum of 20 points during
the scoring process based on how effectively the
proposals address EPA’s evaluation criteria. In fiscal
year 1999 there were so many applications that
proposals were divided into three groups. Each
proposal was reviewed by 7 to 10 panelists. Upon
review of the proposals, scores were submitted to
OSPS to compute an average score and ranking for
the regional review panel(s).

We noted instances where the scoring of individual
proposals varied significantly among reviewers using
the same criteria. For example, out of the 20-point
maximum, we noted proposals which were scored
from 0 to 18, from 3 to 17.5, and from 6 to 20. With
this much deviation, individual ratings become less
meaningful. It could be that scores could become
more consistent with something as simple as a
handout to reviewers itemizing things that should or
should not be in the proposal. It may also be that
reviewers need to be chosen a little more carefully,
with an eye to their brownfields experience, or that
the rating criteria need to be clarified. As scores
become more consistent, they will become more
reliable and, therefore, there should be less need to
drastically deviate from the rankings.

There is an additional benefit to bringing consistency
to the rating process. If this occurs, it should be
possible to eliminate a step in the selection process.
Either the regional panels (discussed below) could be
eliminated, or the regional panels could collectively
assign the ratings, and the individual ratings could be
eliminated.

Each regional panel discussed all candidates for their
panel, but recommended only those proposals which
they believed best met the selection criteria. The
regional panels’ recommendations were then


         10                        Report No. 2000-P-00027
reviewed by Headquarters program, grants, legal,
and enforcement personnel as necessary. They were
summarized and presented to the AA who, with input
from OSPS and regional personnel, made the final
award selections.

We reviewed the panel evaluations and
recommendations for selections made since our last
audit--fiscal years 1998 (round 8) and 1999 (round 9).
We found that in both years lower ranked proposals
were recommended and ultimately selected over
higher ones, and there was no documentation
showing why this occurred. This was most noticeable
in 1999, where proposals’ initial ratings earned them
a ranking of first, second, and fifth when forwarded to
the convening regional panel (Panel C). However,
none of these proposals was selected for award after
review by OSPS. Additionally, the slate of candidates
from Panel C included a proposal ranked 45th (out of
47). We identified similar examples with regional
Panels A and B, where lower ranked proposals were
selected to go forward in the process while higher
ranked proposals dropped off the candidate slate;
however, we did not find deviations as extreme as
those from Panel C.

We discussed the results of our analysis with OSPS
officials. The Director of OSPS stated that the
numerical rankings developed for brownfields
assessment grant proposals are not really rankings
per se, but are designed to identify those proposals
which are clearly in the bottom, middle, and upper
tiers; and those proposals which are not likely
candidates for selection. The Director commented
that the regional panels do not generally consider the
need for national geographic coverage, a mix of sizes
of the cities submitting proposals, and tribal
representation, which are factored into the
Headquarters evaluation. The Director added that
the Headquarters review can involve soliciting advice
from grants, legal, and enforcement experts to
identify “fatal flaws” in applications. Furthermore, the
OSPS review smooths regional variances and adds


         11                        Report No. 2000-P-00027
an arm’s length review removed from the initial
evaluation process.

The AA provided us with a valid explanation as to
why the number one ranked proposal from Panel C
did not receive an award. He stated that it was not
accepted because the city already had an existing
brownfields assessment pilot. In an effort to involve
as many entities as possible, EPA has determined
not to award multiple pilots to the same jurisdiction.
The AA also explained that the proposal ranked 45th
(a tribal candidate) was selected because the Agency
made a conscious decision to include a diversified
candidate for selection. The AA added that tribes
have not had the experience that the cities have had
in preparing quality proposals; therefore, the Agency
has been meeting and working with them in order to
help improve the quality of their applications. Agency
officials did not document in the grant or selection
files any of their justifications for why these particular
grant applications were either awarded or not
awarded.

A less compelling case can be made for the other two
deviations which we have cited. In the case of the
second ranked proposal, the AA indicated that the
proposal was not selected because the regional
brownfields representative on the Headquarters
selection panel did not believe the proposal was a
good candidate for selection, despite its high ranking.
The AA stated he was not sure why the fifth ranked
proposal was not considered for award by the
regional panel. He speculated that the regional panel
may have detected too many flaws with the
application during their review. Our subsequent
review of Agency documents pertaining to this
application showed that there were several
weaknesses identified by the regional panel. This
may have contributed to it not being forwarded to
Headquarters for consideration of award.

The selection process would be strengthened by
more clearly describing the purposes and results of


         12                          Report No. 2000-P-00027
                  the various reviews. We recognize that there may be
                  valid reasons for EPA to occasionally pass over a
                  proposal with a higher rank and select a proposal of
                  lower ranking. However, when this does occur, we
                  believe OSPS should document the rationale for the
                  decision. During our fieldwork, we discussed the
                  selection process at length with the Director and her
                  staff. They were willing to refine or modify the
                  process as necessary. If the role of the regional
                  panelists is to separate out the weakest of the
                  proposals, as opposed to ranking each proposal in
                  order of its merit, categorizing the proposals in
                  groups such as high, medium, or low, or even
                  pass/fail would be more representative of what they
                  are trying to accomplish. Additionally, any selection
                  deviating from the categorization; e.g., selecting a
                  medium over a high or including a “fail” would need to
                  be justified in writing. The function of the
                  Headquarters review should be clearly delineated.
                  The AA could still retain final grant approval, if
                  desired, with deviations from the recommended
                  selections also requiring written explanation

Recommendations   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  2-1.   Revise the “Proposal Guidelines for
                         Brownfields Assessment Demonstration Pilots”
                         to instruct applicants to include project
                         milestones for completing tasks under pilot
                         demonstration projects.

                  2-2.   Remind applicants and reviewers, prior to the
                         submission of proposals, of the need to
                         recognize in writing that quality sampling and
                         analysis procedures must be followed when
                         site assessment work is proposed, and
                         accordingly apply this criterion during the
                         evaluation process.

                  2-3.   Clarify the responsibilities of all persons
                         involved in the selection process and
                         enumerate those responsibilities in written


                           13                       Report No. 2000-P-00027
                             guidance made available to the public and the
                             selectors.

                      2-4.   Formalize selection procedures in the written
                             guidance for all steps of the review process.
                             Establish formal procedures for Headquarters
                             review of regionally ranked proposals which
                             ensures that each regionally acceptable
                             proposal is reviewed by a set number of
                             Headquarters experts (individually or
                             collectively) and ranked.

                      2-5.   Provide written justification for deviations from
                             the ranking.

Agency Response and
OIG Evaluation        The Agency agreed to revise its proposal guidelines,
                      establish standard operating procedures for the pilot
                      selection process, and replace the numerical scores
                      with a high/medium/low rating of the proposals.
                      These actions will be complete by October 2000,
                      January 2001, and October 2000, respectively. The
                      proposed corrective actions will address the
                      recommendations and no further action is required.




                               14                         Report No. 2000-P-00027
                            CHAPTER 3
                Brownfields Quality Assurance


                               To implement the recommendations from our March
                               1998 report relating to quality assurance (QA), EPA
                               issued Brownfields QA guidance to the regions,
                               informed pilot recipients of QA requirements, and
                               reminded project officers and assistance recipients of
                               the need for EPA-approved Quality Assurance
                               Project Plans (QAPPs) prior to conducting field work.
                               While the regions we reviewed appear to have given
                               consideration to the guidance, the extent to which
                               they implemented it varied. Region 4 had not
                               instituted adequate QA policies and procedures and
                               Region 5 was inconsistent in implementing the
                               policies. Consequently, we are uncertain that the
                               data collected during some site assessments is of
                               acceptable quality upon which to base clean-up
                               decisions. We believe significant improvements to
                               Region 4 practices are necessary to provide
                               assurance that environmental data is of acceptable
                               quality.

Prior Recommendations Have
Been Implemented by OSWER In our March 1998 audit, we reported that pilot cities
                           were being awarded grants to conduct site
                           assessment work, but were not required to adhere to
                           a quality assurance program. Additionally, OSWER
                           had not set up a quality assurance framework for the
                           conduct of site assessments as required under EPA
                           Order 5360.1 CHG1. Therefore we recommended
                           that OSWER:

                               •     Remind project officers and assistance
                                     recipients of the need for EPA-approved
                                     QAPPs prior to conducting field work.




                                        15                       Report No. 2000-P-00027
                       •     Issue the Brownfields QA guidance to the
                             regional offices and provide copies of the
                             guidance to pilot recipients.

                       OSWER has taken both of these actions. In
                       September 1998, they distributed their guidance
                       document entitled “Quality Assurance Guidance for
                       Conducting Brownfields Site Assessments.” Then, in
                       February 1999, the Director, OSPS, issued a
                       memorandum to all regional brownfields coordinators
                       informing them of the requirement, under 40 CFR
                       §35, Subpart O, that pilot cities submit QAPPs for
                       brownfields site assessments to EPA for review and
                       approval prior to beginning field work.

                       We reviewed the national brownfields guidance and
                       concluded that the guidance adheres to EPA policy
                       and requirements under the mandatory quality
                       assurance program for environmental data collection
                       (EPA Order 5360.1 CHG1). Furthermore, the
                       guidance contains an excellent discussion of quality
                       assurance concepts, especially the discussion of data
                       quality objectives. The document also contains
                       illustrative examples to assist the reader with
                       comprehension of complex quality assurance
                       concepts.

Strength of Regional
QA Programs Varied     We believe that OSPS, the office responsible for
                       coordinating and implementing the Brownfields
                       Initiative, has now instituted adequate QA policies
                       and procedures for the conduct of brownfields site
                       assessments. To determine whether the regions
                       implemented these procedures, we judgmentally
                       selected three regions, Regions 1, 4, and 5 to
                       conduct QA fieldwork. We reviewed regional
                       guidance as well as QAPPs and Phase II site
                       assessment reports for two pilot cities in each of the
                       selected regions. We interviewed each regional
                       quality assurance contact to gain an understanding of
                       how the quality assurance program is implemented in
                       each region. We also discussed the management



                                16                       Report No. 2000-P-00027
and implementation of quality assurance procedures
for sampling activities with pilot representatives.

We found that QA guidance was provided to the three
regions we visited. Although not all pilot cities we
visited had a copy of the guidance document, city
officials were generally aware of the guidance and
the need for proper QA procedures during site
assessments.

One of the three regions (Region 4) in our sample
had prepared and issued its own QA guidance in
December 1998 which communicates to its pilot cities
the minimum information to be included in a
brownfields site assessment QAPP. It also
references the national guidance for more detailed
information and a discussion of QA concepts. We
found this document to be redundant when compared
to the national guidance, but with far less discussion
of QA concepts.

Because the three regions in our sample varied
significantly in implementing their regional QA
programs, we will discuss each region separately.

Region 1 Implementation

Region 1 has instituted adequate basic QA policies
and procedures for the conduct of brownfields site
assessments. QAPPs were prepared and approved
by EPA prior to sampling for both of the pilot cities we
reviewed. Discussions with the Project Managers
(PMs) and the QA Manager (QAM) revealed that the
Region meets with its pilot cities prior to development
of the QAPP to explain the Region’s requirements for
conducting brownfields site assessments, including
requirements and expectations for QAPPs. In
addition, the EPA QAM recommends that the city and
contractor personnel conduct a preliminary site visit
to better visualize the site conditions prior to
assembling the QAPP. Regional involvement with
cities and their contractors early in the process helps
to ensure that the project objectives are well thought


         17                        Report No. 2000-P-00027
out and agreed upon by all involved parties. In
addition, the region’s early involvement speeds the
review and approval process, thereby leading to
earlier implementation.

Region 1 does not review the site assessment reports
for adherence to the approved site-specific QAPPs.
(This was also true for Regions 4 and 5). However,
our review of the site assessment reports for the two
Region 1 pilot cities we selected revealed that the
site sampling and analysis correlated with the
approved, planned work. That is, the number, type
and location of environmental and quality control
samples collected were commensurate with that
specified in the QAPP.

Region 4 Implementation

We found that Region 4 had not instituted adequate
QA policies and procedures for the conduct of
brownfields site assessments. The Regional QAM
told us that PMs and pilot cities have been instructed
on the requirement that QAPPs be in place prior to
beginning field work. For the two pilot cities selected,
however, we found that four of seven QAPPs were
prepared and submitted to EPA for review after
sampling was conducted; and five of seven QAPPs
did not contain any indication that EPA had reviewed
and approved the QAPP. The Regional QAM
explained that the PMs tend to invite QA staff to
review and comment on QAPPs only when they are
uncomfortable or inexperienced with scientific or
technical issues. Otherwise, some PMs elect to
review QAPPs themselves. In addition to these
concerns, one QAPP did not include sample
collection locations; one QAPP did not include
specific information, such as number and type of
samples to be collected; and one QAPP referenced
outdated guidance. These problems indicate that
regional managers and staff do not fully understand
the importance of, nor are committed to, sound QA
practices.



         18                        Report No. 2000-P-00027
                         Region 5 Implementation

                         Region 5, like Region 1, has instituted adequate
                         basic QA policies and procedures for the conduct of
                         brownfields site assessments, but is somewhat
                         inconsistent in the implementation of those polices.
                         QAPPs had been prepared prior to sampling for both
                         of the pilot cities we reviewed; however, we could not
                         verify that the QAPP and/or sampling and analysis
                         plans were reviewed and approved by EPA for one of
                         the two cities in our sample. Discussions with the
                         PMs and the QAM revealed that Region 5, like
                         Region 1, meets with its pilot cities prior to
                         development of the QAPP. The purpose of this
                         meeting is to go over the Region’s requirements for
                         conducting brownfields site assessments, including
                         requirements and expectations for QAPPs, as well as
                         site-specific and development issues. In addition, the
                         EPA PMs and the QAM recommend options for
                         sample analyses, including use of the EPA Contract
                         Laboratory Program and the Region 5 Laboratory.
                         Regional personnel also provide their cities with a
                         copy of the national brownfields QA guidance.

                         The QAM, however, does not provide written
                         comments to the city or its contractor after reviewing
                         the QAPP. Typically, the QAM will discuss concerns
                         directly with the contractor via the telephone. When
                         asked why comments were not documented, the QAM
                         replied that it is too time consuming and introduces a
                         formality into the relationship among the three
                         parties. As with Region 1, Region 5 does not review
                         the site assessment reports for adherence to the
                         approved site-specific QAPP. Our review of the site
                         assessment reports for the two cities selected
                         revealed that sampling and analysis conducted
                         during the assessments correlated with the planned
                         work outlined in the QAPP.
QAPPs Are Key to Valid
and Useful Assessments   QAPPs are considered to be the blueprint of
                         assessment work to be conducted. They contain
                         essential information on key decisions to be made, as
                         well as the number and type of samples to be


                                  19                       Report No. 2000-P-00027
collected to arrive at these decisions. They also
contain information on what happens if the right data
is not collected. Evidence of an EPA-approved
QAPP documents a well thought out process to
achieve the assessment’s intended objective. In
addition, the QAPP serves as an assessment tool
which EPA can use to evaluate the progress of the
grantee and the effectiveness of chosen actions.

The primary goal of the Brownfields Initiative is to put
idle or underutilized properties into productive reuse.
It would be a great threat to the success of the
program to discover properties returned to use where
employees or residents were becoming seriously ill
due to toxic pollutants not having been adequately
identified or cleaned up. One of the most effective
ways to minimize this threat is to insist on effective
quality assurance measures during site assessment
and cleanup.

While OSWER has done a commendable job since
our last audit in providing QA guidance for conducting
brownfields site assessments, regions have not been
consistent in implementing the guidance. Although
guidance is not mandatory, given the widely
recognized value of a sound QA program, the varying
degree of adherence to the national guidance was
cause for concern. We are unable to state with any
degree of assurance that the environmental data
collection for all brownfields site assessments is of
acceptable quality upon which to base clean-up
decisions. Our review of five of the earliest site
assessment grants for our 1998 report showed that
very little of the grant activities focused on actual site
assessments. The absence of an adequate QA
program, while troubling, certainly was not
devastating given the relatively small number of
grants and the even smaller number of site
assessments. As a result of our recommendation, the
Agency has now focused its site assessment grants
on site assessments. Ninety-eight percent of grants
awarded in 1998 and 1999 involve some site
assessment work. Furthermore, the number of site


         20                         Report No. 2000-P-00027
                               assessment grants awarded increased from 23 in
                               1998 to 57 in 1999. As the program matures, the
                               need for clean-up decisions to be based on sound
                               science grows exponentially.

                               OSWER should evaluate the implementation of its
                               QA process in the regions. If problems are identified,
                               then it should take corrective action to ensure that
                               quality assurance is built into all brownfields site
                               assessments and cleanups.
Site Visits and Increased
Communication Can Enhance
the Quality of Assessments During the course of our review, we found that project
                           officers and/or QA staff of some EPA regions
                           periodically visit brownfields sites during site
                           assessment sampling and analysis activities. Such
                           visits serve to ensure that QAPP procedures are
                           appropriately followed and can help to ensure high
                           quality assessments. We learned that the project
                           officers and/or QA staff in Regions 1, 5, and 9
                           conduct periodic site visits. Project officers who
                           conduct such visits explained that the visits were a
                           very useful way to prevent or minimize potential
                           problems with sampling activities and ensure the
                           quality and consistency of sampling data for site
                           decision-making.

                               Communicating with grant recipients at the very
                               outset of projects is also a desirable practice to
                               ensure everyone is familiar with the purpose and
                               requirements of the grants. Project officers in
                               Regions 1 and 5 meet with grantees shortly after the
                               award of grants to explain grant requirements and
                               address grantees’ questions or concerns. Region 1
                               invites all recent grant recipients in at one time for an
                               informational briefing and conference. Regional staff
                               discuss relevant issues and restrictions regarding the
                               grants. The regional staff address any questions the
                               grantees may have and clarify areas of uncertainty.
                               The QA staff in Region 1 sometimes participate in
                               these meetings to explain QA for site assessments.
                               Region 5 conducts a pre-QAPP meeting with the city
                               and its contractors for each project. During this


                                        21                         Report No. 2000-P-00027
                  meeting, the region and the grant recipient will
                  discuss the purpose of the assessment and the
                  scope.

                  Other EPA regions should consider conducting such
                  meetings with grant recipients at the very beginning
                  of brownfields projects to discuss goals and
                  objectives, clear up questions, and ensure that
                  grantees are proceeding in the right direction.

Recommendations   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  3-1.   Conduct an initial evaluation of how effectively
                         Regions 2, 3, 6, 7, 8, 9, and 10 are
                         implementing QA guidelines for brownfields
                         site assessments and follow up with periodic
                         national oversight.

                  3-2.   Work with Region 4 brownfields managers to
                         implement adequate QA procedures and to
                         ensure that site assessment grant recipients
                         prepare and submit QAPPs to EPA prior to
                         field sampling.

                  3-3.   Remind Region 5 that review and approval of
                         QAPPs and/or sampling and analysis plans
                         prior to field sampling activities is expected
                         practice.

                  3-4.   Share desirable practices, such as pre-QAPP
                         meetings, with all regions and encourage
                         regional brownfields coordinators to
                         communicate up front with grantees to address
                         questions and concerns about QAPPs. The
                         regions should invite QA staff to participate in
                         these initial conferences.

                  3-5.   Encourage the project officers and/or QA staff
                         to communicate frequently with pilot cities and
                         conduct periodic site visits to ensure the
                         quality of site sampling and overall site
                         assessments.


                           22                        Report No. 2000-P-00027
Agency Response and
OIG Evaluation        OSWER agreed to evaluate QA implementation in
                      the remaining regions over the next three or four
                      fiscal years. The Agency will be addressing the
                      remaining recommendations on an on-going basis
                      during regularly scheduled contact with the regions.
                      The proposed corrective actions will address the
                      recommendations and no further action is required.




                               23                       Report No. 2000-P-00027
                                 CHAPTER 4
   The Brownfields Cleanup Revolving Loan Fund


                                    The Brownfields Cleanup Revolving Loan Fund
                                    (BCRLF) pilots have been slow to make cleanup
                                    loans. Since 1997, EPA has awarded $43.1 million to
                                    68 pilots; an additional 30 pilots have been selected
                                    to receive funding in fiscal year 2000. As of June 30,
                                    2000, approximately $1 million had been loaned, and
                                    only one cleanup had been completed. The primary
                                    reasons for delay are the barriers imposed by
                                    Superfund legislation (CERCLA and the associated
                                    NCP requirements), the grantees’ lack of
                                    understanding about how to overcome some of the
                                    barriers, and the availability of commercial loans at
                                    about the same interest rate without the BCRLF
                                    restrictions and administrative requirements. OSPS
                                    has been working hard to overcome these
                                    impediments. EPA supports the bipartisan
                                    brownfields legislation introduced in the Senate in
                                    June2. OSPS has issued guidance, offered training,
                                    and is trying to increase the flexibility of the program
                                    to attract loan applicants. These efforts may produce
                                    results. In fact, four of the five loans made came from
                                    the1999 awards. However, the first pilots have not
                                    yet completed their project period, the second group
                                    has not completed their first year, and the most
                                    recent selectees have not received their awards.
                                    Given the limited history of the program, along with
                                    the number of changes being proposed and made,
                                    now is not the most appropriate time to determine the
                                    success of the BCRLF. We recommend that EPA
                                    obtain a comprehensive evaluation of the costs and


       2
        The Brownfields Revitalization and Environmental Restoration Act of 2000, S. 2700, was
introduced on June 8, 2000, by four members of the Environment and Public Works Committee,
including the Chair of the Subcommittee on Superfund, Waste Control and Risk Assessment.

                                             24                         Report No. 2000-P-00027
                             benefits of this program after gaining more
                             experience, perhaps at the end of fiscal year 2003.

Status of the BCRLF Awards   The BCRLF was created to enable states, political
                             subdivisions, and Indian tribes to make loans to
                             facilitate the cleanup and redevelopment of
                             brownfields properties. Grantees (pilots) were
                             authorized to spend up to 15% of the award on
                             administrative expenses. Only entities that had been
                             Site Assessment pilots or had Targeted Brownfields
                             Assessments performed in their jurisdiction were
                             eligible to apply for the BCRLF which was intended to
                             be the next phase in the logical progression of the
                             Brownfields Initiative. In 1997, EPA awarded 23
                             cooperative agreements for $350,000 each to
                             capitalize the initial BCRLF pilots.

                             When we conducted our original review, no loans had
                             been made and Congress had questioned the
                             Agency’s authority to use Superfund dollars to fund
                             such a program. The 1998 appropriation legislation
                             prohibited the use of Superfund money for the
                             BCRLF. There was no restriction in the following
                             year’s appropriation; so in 1999, EPA awarded 45
                             new cooperative agreements for up to $500,000 per
                             eligible entity. Additionally the Agency provided
                             supplemental funding of $150,000 to seven of the
                             1997 pilots that had demonstrated substantial
                             progress toward making loans. The supplement
                             amount provided parity for the selected 1997 pilots
                             with the newly awarded 1999 pilots.

                             Four pilots have issued the only five loans made as of
                             June 30, 2000. The two loans, made by the city of
                             Stamford, CT, had consumed the bulk of the “seed
                             money” provided by EPA, and the city contributed
                             additional resources to its fund. The first BCRLF loan
                             was for $250,000 to a private developer to clean up a
                             former shipyard site with multiple contaminants to
                             build waterfront condominiums. The second loan by
                             Stamford was for $160,000 to business owners who
                             wanted to clean up an industrial site with multiple
                             contaminants in order to expand and relocate their


                                      25                       Report No. 2000-P-00027
                               motorcycle dealership. The first loan, however, was
                               recently “rescinded” as the developer transferred the
                               property to another owner and will not be building the
                               condominiums. The cleanup on the second loan is in
                               progress.

                               The first and only completed cleanup was funded by
                               a $50,000 loan from the city of Las Vegas, NV, to a
                               public entity to create a small-business incubation
                               and community center on the site of a former National
                               Guard Armory with contaminated soil. EPA awarded
                               a cooperative agreement to Las Vegas in September
                               1999, and in November this loan was approved.
                               Before the end of December 1999, the cleanup was
                               complete.

                               Trenton, NJ, a 1997 pilot, and Shreveport, LA, a 1999
                               pilot, have recently signed “loans to themselves” in
                               which the cities are each responsible for the cleanup
                               and redevelopment of their properties. The loans
                               were for $275,000 and $400,000, respectively.
                               [Trenton, on July 6, 2000, approved its second loan
                               for $150,000.]

Impediments to Loan Issuance CERCLA and NCP requirements have provided the
                             most significant impediments to the success of the
                             BCRLF. CERCLA restrictions prohibit the use of
                             Superfund dollars to clean up sites contaminated
                             solely with petroleum products. BCRLF pilot funds
                             also may not be used to clean up products that are
                             part of the building structure and result in exposure
                             within residential buildings or business or community
                             structures. For example interior lead-based paint
                             contamination or asbestos that results in indoor
                             exposure only may not be cleaned up with BCRLF
                             pilot funds. Additionally, BCRLF pilot funds are
                             generally not permitted to be expended on building
                             demolition, unless demolition is necessary for the
                             cleanup. Further, the CERCLA requirement that
                             borrowers pay Davis Bacon Act wages may
                             discourage businesses from borrowing from the
                             BCRLFs. Other “cross cutting” social policy
                             requirements that apply by their own terms may


                                        26                       Report No. 2000-P-00027
similarly discourage borrowers. Once cleanup has
begun, it must be completed in 12 months, and it
must be supervised by an On-Scene Coordinator
(OSC). The OSC is a government employee who
manages the site and must have experience with
coordinating environmental responses and
knowledge of the associated requirements. These
restrictions severely limit some cities’ abilities to
make loans from their BCRLFs.

At the time of our previous report, these barriers had
been identified and suggestions made for overcoming
them. We recommended that the then-Acting
Assistant Administrator: (1) explore alternatives to
help recipients overcome CERCLA- and NCP-related
barriers and (2) provide them with training on
applicable CERCLA requirements.

EPA’s activities to implement our recommendations
were as follows: Agency officials met with
Congressional staff to discuss options to enhance the
program and commented on various proposed
legislative changes. OSPS has provided
clarifications to existing requirements, highlighting
areas of flexibility of which pilots may not have been
aware. For instance, Agency officials suggested that
BCRLF pilots enter into agreements with the Army
Corps of Engineers or their state government to
provide OSC services if they do not have that
capability in-house.

As recently as May of this year, EPA took the position
that existing regulations were adequate and
workable. Rather than pursue the lengthy process of
regulatory change, Agency officials chose to focus
their efforts on identifying areas where policy
guidance could be developed or clarified in
interpreting how to apply the NCP requirements to
brownfields. However, it appears that this position is
changing. On June 29, 2000, the AA testified before
a Senate Subcommittee that EPA supported the
bipartisan brownfields legislation proposed by the
Subcommittee. If Congress passes the bill, that may


         27                        Report No. 2000-P-00027
                             provide legislative relief from CERCLA and NCP-
                             related barriers.

                             Since our last report, OSPS has issued guidance and
                             conducted training. In May 1998, OSPS issued the
                             Administrative Manual to provide guidance to regions
                             and pilots as to how the program should be run.
                             OSPS also conducted a training session for the
                             regions in February 1999. Many pilot and regional
                             representatives attended the one-day BCRLF
                             seminar offered prior to the Brownfields ‘99
                             conference and found it useful. The regions we
                             visited have provided formal training to pilots at least
                             once since our prior report was issued. One of the
                             regions even offered applicants a series of sessions
                             to better understand the program before they became
                             participants. In June 2000, OSPS held another one-
                             day workshop on the BCRLF program to help the
                             regions help their pilots.

Increasing Flexibility May
Increase Loans From
the BCRLF                    We were told by municipal officials at the time of our
                             first audit that the constraints imposed by Superfund
                             legislation, the small dollar amount of the loan, and
                             the increased administrative requirements and the
                             inflexibility associated with the BCRLFs would not
                             make these loans highly sought after. Furthermore,
                             with interest rates low and the economy doing well,
                             commercial loans at about the same interest rate
                             were available and without all the requirements of the
                             BCRLFs.

                             Most of the municipal officials we met with during our
                             follow-up also believed that changes were needed to
                             make the program more successful. They told us that
                             the program, as it exists, is too narrow and inflexible
                             to meet the needs of many local governments. They
                             believed that even beyond the legislative/regulatory
                             changes, EPA could and should open the program to
                             more localities and more borrowers. They stated that
                             less restrictive funds are available in commercial
                             loans and other government grant programs. Some


                                      28                        Report No. 2000-P-00027
                           of the changes they suggested were: open BCRLF
                           eligibility to any jurisdiction having completed
                           qualified assessments (not just EPA-paid
                           assessments); expand the pool of eligible borrowers
                           to include Potentially Responsible Parties; offer
                           clean-up grants; and increase the amount awarded to
                           pilots to allow them to address more complex
                           cleanups.

                           In June, we discussed the BCRLF with the OSPS and
                           its Director, all of whom were convinced that the
                           program would be successful despite its slow start.
                           They pointed out that the loans that have been made
                           have come from the newer awards. They believe this
                           has occurred because the municipalities now have an
                           understanding of the CERCLA and NCP constraints,
                           as well as the knowledge of how to overcome some of
                           them. They were excited by the fact that a new loan
                           was to be announced the next day. Further,
                           municipalities were discussing joining together for
                           BCRLF purposes. At least one 1997 recipient, thus
                           far having not made a loan, was discussing this
                           approach with neighboring counties, and OSPS staff
                           were optimistic that it would occur.

The Future of the BCRLFs   The proposed legislation, if it passes Congress, and
                           its attendant regulations, may be years in the making.
                           In the interim, the Agency should continue to clarify
                           existing requirements, train grantees, and infuse the
                           current program with as much flexibility as possible.
                           Additionally it must make some difficult decisions
                           about its initial BCRLF awards. As the 1997 awards
                           are approaching the end of the three-year project
                           period, EPA is faced with the prospect of reclaiming
                           the more than $7 million not loaned by those pilots.
                           The Director, OSPS, acknowledged that the grants’
                           closeout criteria allows them to begin this process as
                           early as 18 months into the project period when less
                           than 50% of the funds have been loaned. They also
                           indicated that they will not include that language in
                           future grants.




                                    29                       Report No. 2000-P-00027
                  We discussed the possibility of returning unused
                  funds to EPA. Neither the Agency nor pilot
                  representatives were anxious for the funds to be de-
                  obligated, yet this was acknowledged to be a
                  probable outcome for at least a few pilots. In a June
                  2000 meeting with the audit team, the Assistant
                  Administrator affirmed his willingness to reclaim as
                  many of the awards as necessary.

                  Finally, the Agency needs to commit to an
                  independent evaluation of the success of the
                  program. While now is not the most appropriate time
                  to do this, after two sets of pilots have completed
                  their project periods, there should be enough
                  information upon which to base an assessment of
                  program accomplishments. When the BCRLF was
                  developed and funded in 1997, neither EPA, nor the
                  initial pilots, had a clear understanding of the
                  problems to be faced and the means to overcome
                  them. Thus, judging the program by the number of
                  loans to this point, or the number of cleanups to date,
                  is premature. However, at the five year point EPA
                  should obtain an independent, comprehensive
                  evaluation of this program.

Recommendations   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  4-1.   Continue efforts to promote and support
                         legislative changes for the Brownfields
                         Initiative.

                  4-2.   Continue to expand available guidance to
                         foster success under current legislation.

                  4-3.   Continue to provide training to current and
                         prospective BCRLF recipients.

                  4-4.   Seek to add flexibility to future BCRLFs by
                         considering:
                         a. Increasing grant award amounts; and




                           30                        Report No. 2000-P-00027
                             b. Expanding the eligible pool of applicants
                                beyond those having participated in EPA
                                assessment programs.

                      4-5.   De-obligate funds awarded to pilots that do not
                             demonstrate substantial progress toward
                             making a loan by the end of their project
                             period.

                      4-6.   Obtain an independent analysis of the success
                             of the BCRLF at the five year anniversary of
                             the program.



Agency Response and
OIG Evaluation        The Agency agreed to continue implementing our
                      original recommendations on an ongoing basis.
                      OSWER described its plans to increase flexibility in
                      the BCRLF by increasing funding, expanding
                      eligibility, and making cleanup grant money available
                      in FY2001, by modifying the proposal guidelines
                      which will be issued by October 2000. The Agency
                      agreed to take action regarding the 1997 pilots,
                      completing the process by January 2001. An
                      independent evaluation of the BCRLF will be
                      obtained at the program’s five-year anniversary. The
                      proposed corrective actions will address the
                      recommendations and no further action is required.




                               31                       Report No. 2000-P-00027
                        CHAPTER 5
             Brownfields Initiative Reporting


                        Quarterly reporting by brownfields site assessment
                        grant recipients has improved since our previous
                        audit. The reports now specify the activities
                        performed with EPA funding and contain data which
                        are useful to the regions and headquarters
                        brownfields officials. Not all quarterly reports were
                        submitted timely, however. In addition, some
                        clarification may be needed for information required
                        of grant recipients in the quarterly reports. We found
                        that the Agency has initiated steps to improve the
                        accuracy of achievements reported through the
                        Brownfields Management System (BMS).

Reporting Brownfields
Accomplishments Needs
to be Timely            Quarterly reports are required from the recipients of
                        EPA brownfields site assessment grants. These
                        reports are used by headquarters and regional
                        brownfields officials to manage the site assessment
                        program. The quarterly reports also assist EPA
                        project officers in staying abreast of property
                        assessment, cleanup and redevelopment activities on
                        individual projects. Our March 1998 report
                        recommended that EPA instruct grantees to clearly
                        delineate in quarterly reports those activities which
                        were undertaken with EPA funds during the reporting
                        period. The reports that we reviewed for our current
                        audit indicated how EPA funds were being spent.
                        However, not all reports that we reviewed were
                        submitted within 30 days after the end of each
                        quarter, as the grant conditions require. A few
                        reports were submitted more than two months late.
                        One report was submitted more than four months
                        late.


                                 32                       Report No. 2000-P-00027
                              Receipt of timely quarterly reports assists the Agency
                              in staying up to date and informed of the progress of
                              various brownfields projects. Data contained within
                              the quarterly reports are input into BMS. BMS assists
                              the Agency in fulfilling Agency reporting requirements
                              for the Brownfields Initiative under the Government
                              Performance and Results Act (GPRA). The ability to
                              accurately track and report on the activities and
                              progress of the pilot projects is vital for achieving the
                              goals of the Brownfields Initiative. Consequently, it is
                              critical that quarterly reports are timely and accurate.
                              As an example of a useful practice, Region 1 sends
                              out a reminder letter to recipients about two weeks
                              before the quarterly reports are due. If reports are
                              overdue for 10 days or more, the Region sends out a
                              second reminder notice. This seemed to be an
                              effective method for ensuring the timely receipt of
                              quarterly reports.

EPA is Working to Improve
the Reliability of BMS Data   During the course of our review, congressional
                              committee staff expressed concerns regarding the
                              reliability of BMS data because of fluctuations in
                              certain accomplishment data reported in various
                              quarterly reporting periods, especially regarding the
                              number of site assessments completed. The
                              committee staff believed that some accomplishment
                              data may have been overstated.

                              We performed a limited analysis of selected
                              accomplishments included in the National
                              Brownfields Management Summary reports for the
                              18-month period July 1998 through December 1999.
                              We examined the data for the quarterly reporting
                              periods ending September 30, 1998, and September
                              30 and December 31, 1999. The categories we
                              evaluated included:

                              •      assessment demonstration pilots awarded,
                              •      properties with site assessments started with
                                     pilot funding,
                              •      properties with site assessments completed
                                     with pilot funding, and


                                       33                         Report No. 2000-P-00027
                                    •       properties with redevelopment activities
                                            underway.

                                    We found that the totals contained in the national
                                    summary reports for the above categories had not
                                    generally fluctuated, but steadily increased over time,
                                    which would be expected in a growing program. The
                                    increases can be seen in Table 1 below.

                                           Table 1

                   Selected Brownfields Accomplishments Reported in BMS
                              July 1, 1998 - December 31, 1999

       Category              Qtr. ending              Qtr. ending          Qtr. ending
                               9/30/98                  9/30/99             12/31/99
 Pilots awarded                   225                     304                   305

 Properties with                  893                    1,844                 1,883
 assessments started with
 pilot funding

 Properties with                  704                    1,665                 1,674
 assessments completed
 with pilot funding

 Properties w/ redevelop.         85                      173                   184
 activities underway


Source: Brownfields Management Summaries [National]

                                    According to OSPS representatives, EPA typically
                                    only receives about 75 percent of the quarterly
                                    reports at the time that the National Brownfields
                                    Summary report is issued, since many quarterly
                                    reports are not submitted timely to EPA.
                                    Consequently, the numbers included in the BMS
                                    summary reports are more likely to be conservative
                                    and understated rather than overstated. In our
                                    review of this data, we did observe fluctuations in the
                                    individual data points for the time periods selected as
                                    OSPS issued revisions to the reports in keeping with
                                    efforts to improve the accuracy of BMS reports.

Clarification of Terms Desired      Some city officials indicated that they had difficulty in
                                    providing EPA with the information the Agency needs

                                              34                        Report No. 2000-P-00027
for BMS input. Some officials said that they often had
to reconfigure the numbers in their own data bases to
meet EPA information needs. City officials added
that some questions were unclear and difficult to
answer. For example, some officials said that it was
difficult to:

(1)    Provide a hard and fast figure on the number
       of Brownfields sites in a particular city (e.g.,
       should a site with multiple adjacent tracts be
       counted as one site or several?); and

(2)    Calculate the remediation and/or
       redevelopment jobs and dollars leveraged
       which can be attributed to EPA’s grant.

Agency staff acknowledged that there has been some
confusion regarding definitions of properties and
parcels among some cities. EPA has had many
discussions with pilot city representatives on this
issue. Much discretion is left to the cities to decide
how properties are defined. In some cases, the
numbers of properties to be reported relate to the
intended uses of the property once sites have been
declared clean. If several different businesses will be
occupying the property, several properties may
ultimately be counted instead of just the one that was
declared for the pilot initially. In other cases, a large
property may still be counted as one property, even
though it is later broken into separate parcels and
multiple assessments and cleanups are conducted.

EPA recently initiated efforts to help clarify some
brownfields terminology. In September 1999, OSPS
issued a memorandum to the Regional Superfund
Policy Managers transmitting Model New Terms and
Conditions related to the minimum reporting
requirements for Brownfields cooperative
agreements. To supplement this clarification of
reporting standards, the Agency issued a “Data
Primer” for users of brownfields information in
February 2000. This document provides definitions
of key measures, terms and conditions, and reporting


         35                         Report No. 2000-P-00027
                  guidelines and the procedures for quality control for
                  brownfields data. The Minimum Reporting
                  Requirements and Data Primer should provide the
                  Agency, its contractors, and pilots a common
                  understanding of brownfields information needs.
                  These documents will be updated periodically, as
                  needed.

                  We were informed by OSPS representatives that they
                  have taken steps to improve the accuracy and
                  reliability of BMS data being reported by revising the
                  data input process. In the past, data were extracted
                  from the quarterly reports and entered directly into
                  BMS. The regions were provided summary reports
                  after the data had been input into BMS. Now data
                  are extracted and entered into a preliminary data
                  base and the regions are given one month to verify
                  the data or resolve problem data before information is
                  entered into BMS.

                  We believe the Agency should continue its current
                  efforts to improve the quality of data collected and
                  reported in BMS. Accurate information about the
                  number of assessments started and completed is a
                  key performance measure for evaluating the success
                  of the Brownfields Initiative.

Recommendations   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  5-1.   Instruct regional brownfields coordinators
                         and/or project officers to identify and notify
                         delinquent quarterly reporters of the need for
                         timely submissions. The coordinators and/or
                         project officers should consider sending
                         reminder notices to grant recipients shortly
                         before the quarterly reports are due.

                  5-2.   Continue to work with regional brownfields
                         coordinators, project officers, and grant
                         recipients to clarify information requirements
                         and establish a common understanding of



                           36                        Report No. 2000-P-00027
                            terms and definitions included in quarterly reports.

Agency Response and
OIG Evaluation        OSWER agreed to include these issues in
                      discussions with the regions and continue such
                      efforts. A model late notice will be developed by
                      March 2001. The proposed corrective actions are
                      responsive to the recommendations. No further
                      actions are required.




                              37                        Report No. 2000-P-00027
                                    APPENDIX I
                                   AGENCY RESPONSE



                                           August 29, 2000


MEMORANDUM

SUBJECT:       Comments on Draft Office of Inspector General Follow Up Audit of Brownfields
               Initiative

FROM:          Timothy Fields, Jr. /s/ Michael Shapiro for
               Assistant Administrator

TO:            Nikki L. Tinsley
               Inspector General

     Attached are our comments on the above-referenced draft Office of Inspector General (OIG)
report. Input from the Office of General Counsel (OGC) as well as our Regional Brownfields
coordinators has been incorporated into this response. We appreciate the OIG’s coordination on
the development of this report and also appreciate that many of our previously suggested changes
were in fact made and are reflected in this current draft report. Our comments also reflect input
received from several EPA regions.

     We continue to believe, however, that the OIG has not recognized the differences between
the competitive processes utilized for direct procurement of Federal contracts and those used for
awarding assistance agreements. Competition for assistance agreements is not legally required,
and certain preferences and judgments of a nonpolitical nature are not only permitted, but are
likely to continue to play a part in the selection process for a small percentage of applicants. Not
every single factor that is utilized in the selection process can be reduced to objective criteria, and
this may be a basic point of disagreement. Our recommendation is that OIG personnel may wish
to further discuss this issue with Jim Drummond of OGC, and we would of course be glad to
answer any further OIG questions with respect to our comments. We appreciate the opportunity
to respond to this report.

     If you have any questions, please contact Linda Garczynski, Director of the Outreach and
Special Projects Staff, at 202-260-4039.

Attachment

                                                  38                            Report No. 2000-P-00027
OSPS Comments on Draft OIG Brownfields Audit Report

Chapter 1 - Introduction (Background)

General Comments

•      Add to first sentence (under “Background), “consistent with the National Oil and
       Hazardous Substances Pollution Contingency Plan (NCP), to address releases . . .”

•      Next (second) sentence, delete the words in “connection with response actions taken
       under CERCLA Sec 104(a).”

•      The third sentence should be replaced with “CERCLA Sec 104 response actions may be
       taken at sites at which there is a release or substantial threat of release into the
       environment of a hazardous substance regardless of whether those sites are listed on the
       National Priorities List (NPL).”

•      The fourth sentence should be replaced with “EPA’s Office of General counsel has
       determined that EPA may address brownfields using CERCLA Sec 104 authorities and
       may, pursuant to CERCLA 104(d), provide funds to states, political subdivisions and
       Indian Tribes to address brownfields.”

•      In the third paragraph, the last sentence should be replaced with “Both types of pilots are
       funded through grants between EPA and any of the following: states, political subdivisions
       (including cities, counties, and regional governmental entities), and Indian Tribes.”

Chapter 2

General Comments

C      In the second to last sentence of the second paragraph under the section “Quality of Grant
       Proposals Has Improved,” the word “in-house” should be placed before “technical
       expertise,” to be consistent with the paragraph above.

C      Under this same section, it is stated that “If the proposal does not adequately address
       quality sampling and analysis when it should, it could be rejected outright or, after
       preliminary review, it could be returned for further work.” We disagree that the proposal
       should be returned to the recipient for further work, since this could impact the integrity
       of the competitive process if some applicants were allowed to change their application
       after the due date.

C      We take issue with the statements on page 8 of the report which state that the selection
       process needs to be more objective in order to “protect the integrity” of the assessment


                                                39                          Report No. 2000-P-00027
       pilot award process. In particular, the statement that “the current process leaves the
       Agency vulnerable to claims of partiality” should be revised or removed, since competition
       for grants is not legally required and statements such as these may inadvertently encourage
       unwanted litigation.

Response to Recommendations

2-1    Revise the “Proposal Guidelines for Brownfields Assessment Demonstration Pilots” to
       instruct applicants to include project milestones for completing tasks under pilot
       demonstration projects.

The “Proposal Guidelines for Brownfields Assessment Demonstration Pilots” dated October 1999
requires that applicants “describe project milestones and project schedule” in the Evaluation
Criteria Part II - Optional (greenspace) section. However, this is not clearly stated in the
Evaluation Criteria Part I. OSWER will ensure that a request for projected milestones and dates
be incorporated in the FY01 guidelines, which are currently be developed.

Issue revised assessment pilot guidelines                    September/October 2000

2-2    Remind applicants and reviewers of the requirement for proposals to acknowledge the
       need for quality sampling and analysis procedures if site assessment work is proposed and,
       accordingly, downgrade those proposals not properly addressing this factor.

The report should acknowledge that submission of a QA plan is not required by the assistance
agreement regulations at Subpart O, and that any decision to downgrade proposals not adequately
addressing quality sampling and analysis procedures would be a program policy call. This area
will continue to be addressed at the work plan negotiation stage, and we do not believe that
downgrading proposals for this reason is appropriate.

2-3    Clarify the responsibilities of all persons involved in the selection process and enumerate
       those responsibilities in written guidance made available to the public and the selectors.

OSWER will develop standard operating procedures (SOPs) for the assessment pilot selection
process prior to convening the review panels for FY01.

Develop standard operating procedures for the assessment pilot selection process January 2001

2-4    Determine the cause for the large deviation in individual proposal ratings, and take steps
       to make ratings more consistent.

2-5    Formalize selection procedures in the written guidance for all steps of the review process.
       Establish formal procedures for Headquarters review of regionally ranked proposals which



                                                40                           Report No. 2000-P-00027
       ensures that each regionally acceptable proposal is reviewed by a set number of
       Headquarters experts (individually or collectively) and ranked numerically.

In response to the above two recommendations, OSWER will develop standard operating
procedures (SOPs) for the assessment pilot selection process prior to convening the review panels
for FY01. We will revise the “Proposal Guidelines for Brownfields Assessment Demonstration
Pilots” to eliminate numerical scores. A high/medium/low rating will be used instead for ranking
purposes.

Develop standard operating procedures for the assessment pilot selection process January 2001

2-6    Provide written justification for deviations from the numerical ranking.

The “Proposal Guidelines for Brownfields Assessment Demonstration Pilots” for FY01 will be
revised to eliminate numerical scores. A high/medium/low rating will be used instead for ranking
purposes.

Issue revised assessment pilot guidelines September/October 2000

Chapter 3

General Comments

•      The second sentence in the first paragraph should read, “While the regions we reviewed
       appear to have given consideration to the guidance, the extent to which they implemented
       the recommendations in the guidance varied.”

•      The discussion in the section entitled “QAPPs are key to valid and useful assessments”
       incorrectly assumes that deviating from guidance is improper. Variations in implementing
       guidance do not necessarily warrant a conclusion that a QA program was not sound. The
       report states that the regions’ varying degrees of adherence to the guidance is cause for
       concern, but does not identify the specific concern.
       Accordingly, the first two sentences of the third paragraph under this heading should be
       replaced with, “While OSWER has done a commendable job since our last audit in
       providing QA guidance for conducting brownfields site assessments, regions have not
       been consistent in implementing the recommendations in the guidance. We believe the
       guidance provides a good basis for developing an effective QA program and would like to
       know under what circumstances the regions are deciding that the recommendations in the
       guidance should not be followed.”

C      We believe that the recommendations for improved communication and site visits have
       merit, but must be weighed relative to their resource utilization. The Brownfields
       Program is now specifically allocated 87 FTE but actually uses 127 FTE, and we estimate


                                                41                          Report No. 2000-P-00027
       it would require 268 FTE to support our workload. With this disparity between needed
       and allocated resources, management must select process improvements that deliver the
       highest benefit to cost ratio. Improved communication seems to be superior to site visits
       in improving QA performance by brownfields grant recipients, and site visits are clearly
       more resource intensive. This suggests we should place emphasis on improved
       communication over site visits.

Response to Recommendations

3-1    Conduct an initial evaluation of how effectively Regions 2, 3, 6, 7, 8, 9, and 10 are
       implementing QA guidelines for brownfields site assessments and follow up with periodic
       national oversight.

Beginning in Fiscal Year 2001, we will evaluate the Brownfields Program management
performance in two or three regions per year. The effectiveness of regional QA/QC practices
will be included in these program reviews.

3-2    Work with Region 4 brownfields managers to implement adequate QA procedures and to
       ensure that site assessment grant recipients prepare and submit QAPPs to EPA prior to
       field sampling.

It is not clear who is the “Regional QAM” referenced in the report, but the cited statements are
not consistent with the region’s brownfields QA review policies. Only qualified brownfields
project managers may review and approve QAPPS. Not all region 4 brownfields project
managers are qualified to do such reviews. Therefore, unless they are technically qualified, they
must submit them to the EPA Athens SESD staff for review and approval. All brownfields
project managers know this. The regional management and staff are committed to implementing
sound QA practices.

Region 4 has taken a number of steps to ensure compliance with the QA requirements by the pilot
cities, including: sending letters and visiting to review and reinforce the requirements; adding an
Army Corp of Engineers chemist with expertise in Laboratory QA/QC to the
brownfields staff; reviewing all Pilot Phase I & IIs for compliance with requirements; conducting a
pilots familiarization visit to an EPA Laboratory to reinforce importance of QA/QC; and
providing a session on QA/QC requirements as part of a regional pilots workshop.

OSPS will continue to work with all regions during our monthly conference calls to ensure they
use sound QA/QC policy.

3-3    Encourage Region 5 to review and approve QAPPs and/or sampling and analysis plans
       prior to field sampling activities.




                                                42                          Report No. 2000-P-00027
Region 5 can document that the QAPP for the project in question (Wayne County) was reviewed
and approved prior to pilot field activity. The site-specific sampling plan for the same project was
also reviewed and approved, but the project manager did not document this. The value of
documenting reviews and approvals will be reviewed with regional brownfields coordinators
during our monthly conference calls over the next six months.

3-4    Encourage regional brownfields coordinators to communicate up front with grantees to
       address questions and concerns about QAPPs. The regions should encourage the
       participation of their QA staff in these initial conferences.

These recommendations will be shared with regional brownfields coordinators during our monthly
conference calls over the next six months.

3-5    Encourage the project officers and/or QA staff to communicate frequently with pilot cities
       and conduct periodic site visits to ensure the quality of site sampling and overall site
       assessments.

This recommendation will be shared with regional brownfields coordinators during our monthly
conference calls over the next six months. Although sensible, this may be difficult to implement
as a greater number of pilots are awarded. It may not be appropriate to provide the same level of
oversight as is required under a regulatory program..

Chapter 4

General Comments

•      In the section entitled “Impediments to Loan Issuance,” the sixth sentence under the first
       paragraph should be replaced with “Further, the CERCLA requirement that borrowers pay
       Davis Bacon Act wages may discourage businesses from borrowing from BCRLFs. Other
       cross-cutting social policy requirements that apply by their own terms may similarly
       discourage borrowers.”

•      In the fourth paragraph of that same section, the word “onerous” (in reference to the
       process of regulatory change) may be a bit overstated. We recommend either deleting this
       word or replacing it with “lengthy.”

•      Under the section entitled “Increasing Flexibility May Increase Loans from the BCRLF,”
       we had previously recommended addition of the following language: “EPA has addressed
       expansion of eligibility for BCRLF pilots from States, political subdivisions, and Indian
       tribes that have received Brownfields Assessment Demonstration Pilots, or political
       subdivisions with jurisdiction over sites that have been the subject of a targeted
       brownfields assessment. In the most recent round of seven pilots announced in July of
       2000, eligible applicants included those political subdivisions or tribes that were part


                                                43                           Report No. 2000-P-00027
       of a collaborative assessment pilot partnership, or otherwise directly benefitted from
       a Brownfields Assessment Demonstration Pilot.”

•      The Agency has also demonstrated flexibility through consideration of BCRLF proposals
       submitted by coalitions formed among two or more otherwise eligible entities. In this
       situation, one of the eligible entities serves as the cooperative agreement recipient for the
       coalition, and depending upon the entities in the coalition, may include a State serving as
       the cooperative agreement recipient on behalf of and for the benefit of the coalition
       members. Also, as noted below under the response to recommendation 4-4, flexibility has
       clearly been demonstrated by the recent decision to increase grant award amounts and
       expand the eligible pool of BCRLF applicants. We believe that these demonstrations of
       flexibility should be evidenced in the report, or at least be accommodated by a footnote.

Response to Recommendations

4-1    Continue efforts to promote and support legislative changes for the Brownfields initiative.

We agree, and will continue such efforts on an ongoing basis.

4-2    Continue to expand available guidance to foster success under current legislation.

We agree, and will do this on a continuing basis.

4-3    Continue to provide training to current and prospective BCRLF recipients.

We agree, and will provide such training on a continuing basis.

4-4    Seek to add flexibility to future BCRLFs by considering: a) increasing grant award
       amounts, and b) expanding the eligible pool of applicants beyond those having participated
       in EPA assessment programs.

We agree. On August 17, the Assistant Administrator for OSWER approved a proposal by the
Office of Outreach and Special Projects that would extend eligibility to all governmental entities
evidencing successful brownfields programs; provide funding up to $1 million per pilot; provide
funding for both loans and grants to pilots; and extend the combination of loan/grant funding to
existing pilots. These changes will be incorporated into the guidelines for pilot proposals in
September of 2000, for selection of pilots in FY 2001.

4-5    Deobligate funds awarded to pilots that do not demonstrate substantial progress toward
       making a loan by the end of their project period.

We agree. Actions are anticipated in the September/October 2000 time frame.



                                                44                           Report No. 2000-P-00027
4-6    Obtain an independent analysis of the success of the BCRLF at the five year anniversary of
       the program.

We agree, and this will be addressed as the program approaches the five year mark.


Chapter 5

General Comments

Minor editorial additions/changes are recommended to this chapter as follows:

•      The third sentence of the first paragraph under the section entitled “Reporting Brownfields
       Accomplishments Needs to be Timely” should read as follows: “The quarterly reports also
       assist EPA project officers in staying abreast of property assessment cleanup and
       redevelopment activities on individual projects.”

•      The last sentence in the first paragraph of the next section (Reliability of BMS Data)
       should refer to the committee staff. (i.e. the committee staff believed that some . . . data
       may have been overstated.)

•      Under the section entitled “Clarification of Terms Desired,” the second sentence of the
       third paragraph should read “In September of 1999, OSPS issued a memorandum to the
       Regional Superfund Policy Managers transmitting Model New Terms and Conditions
       related to the minimum reporting requirements for Brownfields cooperative agreements.”

Response to Recommendations

5-1    Instruct regional brownfields coordinators and/or project officers to identify and notify
       delinquent quarterly reporters of the need for timely submissions. The coordinators and/or
       project officers should consider sending reminder notices to grant recipients shortly before
       the quarterly reports are due.

We will discuss this recommendation with our brownfields coordinators on our next conference
call, and will also discuss it with our OGC attorney to assure that there are no legal issues
involved. Also, we would point out that one region (Region 7) has already adopted this reminder
notice procedure.

5-2    Continue to work with regional brownfields coordinators, project officers, and grant
       recipients to clarify information requirements and establish a common understanding of
       terms and definitions included in quarterly reports.

Agree, and we will continue to do this on an ongoing basis.


                                                 45                           Report No. 2000-P-00027
                              APPENDIX II
                           REPORT DISTRIBUTION


Inspector General
Deputy Assistant Inspector General for Audit
Divisional Inspectors General

Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Follow-up Official
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Communications, Education, and Media Relations
Associate Administrator for Regional Operations

Regional Administrators

Director, Outreach and Special Projects Staff, OSWER
Audit Liaison, OSWER
Brownfields Coordinator, Region 1
Brownfields Coordinator, Region 4
Brownfields Coordinator, Region 5
Brownfields Coordinator, Region 9
Audit Liaison, Region 1
Audit Liaison, Region 4
Audit Liaison, Region 5
Audit Liaison, Region 9
Audit Liaison, OIG
Director, Quality Staff, OEI




                                          46                    Report No. 2000-P-00027
